HAWAII STATE FEDERAL CREDIT UNION
SIGNATURE CASH REWARDS CREDIT CARD,
PLATINUM REWARDS CREDIT CARD AND
PLATINUM SHARE-SECURED REWARDS CREDIT CARD
AGREEMENT
Effective for Credit Card Accounts Opened on or after March 1, 2017

Please refer to the Signature Cash Rewards Credit Card Account Disclosure, Platinum
Rewards Credit Card Account Disclosure and the Platinum Share- Secured Rewards Credit
Card Account Disclosure, as applicable, which is incorporated by reference.
This is an agreement between you and us, Hawaii State Federal Credit Union, covering your
Signature Cash Rewards Credit Card, Platinum Rewards Credit Card and Platinum Share-Secured
Rewards Credit Card Account with us. In this Agreement, “we”, “us,” “our,” and “HSFCU” refer to Hawaii
State Federal Credit Union. “Account” means your Signature Cash Rewards Credit Card, Platinum
Rewards Credit Card or Platinum Share-Secured Rewards Credit Card Account with us. “Card”
means the Credit Card issued for the Account and any duplicates, renewals or substitutions that are
issued for the Card.
1.

RESPONSIBILITY:
By applying for, accepting, signing, or authorizing others to use your Card, an Access
Device (such as a Convenience Check), or Account, you, and all joint Account holders, are
bound by this Agreement and agree to be liable for all Purchases, Cash Advances, Balance
Transfers, Fees, Charges and other transactions arising from the use of your Account, Card
or Access Device. You must be a member in good standing to maintain the Account.
You are responsible for all transactions, Fees and Charges made or incurred by yourself,
any joint Account holder, any authorized user, and anyone else to whom you, a joint
Account holder, or an authorized user allows access to the Account, Card or Access
Device. This responsibility continues until the Card is recovered. You cannot disclaim this
responsibility by notifying us, but if you so request we will close your Account for new
Purchases, Cash Advances and Balance Transfers, and you will be required to surrender all
Cards and Access Devices. Your obligation to pay the entire Account Balance continues
regardless of any agreement, divorce decree or other court judgment of which we are not a
party that directs someone else to pay the Account Balance.
If this is a joint Account, you agree to be bound by this Agreement and to be liable jointly
and severally, even if the Account is canceled or terminated. Any one of you may cancel the
Account and the termination will be effective as to all of you. Also, notice sent to any one of
you will be considered notice to all of you. We may collect from or take legal action against
one of you without giving up any of our rights against the others on the Account. This
Agreement also is binding upon your heirs and personal representatives in probate and
upon anyone to whom you assign your assets or who succeeds to them in any other way.

COMP 4020 (20210120)

1

Consumer Credit Cards EFF 20210201
12121212121212/01

2.

CREDIT INFORMATION:
You authorize us to verify all your credit information when opening, renewing or reviewing
your Account. You also authorize us to receive and provide credit information about you, now
and in the future.

3.

CREDIT LIMIT:
We have established a line of credit for you. You will be advised of the credit limit applicable
to your Account. Your credit limit also will appear on each of your Periodic Statements. You
may increase your credit limit only by written application to us. You agree not to allow your
outstanding Balance to exceed your approved credit limit. If you do exceed your credit limit,
we may not honor your transactions. We do not give up any of our rights under this
Agreement and we may require that you immediately pay any amount over your credit limit.
We also may change your credit limit or suspend or terminate your credit privileges at any
time without prior notice. However, if we change your credit limit or suspend or terminate
your credit privileges, we will give you notice separately or on your next Periodic Statement.

4.

CASH ADVANCES, ATMs, PINs, ACCESS DEVICES, ACCESS CODES:
You can use your Card to obtain Cash Advances at any financial institution or Automated
Teller Machine (ATM) that displays the Visa logo. Cash Advances are limited to the lower of
the dollar amount allowed by the financial institution or ATM network or your credit limit.
Any Personal Identification Number (PIN) or Access Code issued to you is confidential and
serves as a substitute for your Cardholder signature. You should not disclose your PIN or
Access Code to anyone, nor record your PIN or Access Code on your Card or Access
Device, nor keep your PIN or Access Code with your Card or Access Device. You are
responsible for their safekeeping. We may at any time suspend or cancel your access to
ATMs and Access Devices without cause or prior notice.
If you use an ATM not owned by us, you may be charged a fee by an ATM operator or any
ATM network used to complete the transfer (and you may be charged a fee for a balance
inquiry) even if you do not complete a funds transfer. The fee will be debited from your
Account if you elect to complete the transaction or continue with the balance inquiry.
Additional information on Access Devices such as Convenience Checks may be provided to
you with the Access Device. Please call us if you have any questions regarding their use.
Convenience Checks that are paid by us will not be returned to you.

5.

FINANCE CHARGES:
a.

General Information; Annual Percentage Rates (APRs).

We will not charge you interest on your Purchases if you pay your entire balance by your
Payment Due Date each month and do not use your Account for Cash Advances, Balance
Transfers or Convenience Checks prior to our receipt of payment. Your Payment Due Date
is at least twenty-five days (25) after the close of your statement cycle.
Otherwise, the New Balance and subsequent Purchases will be subject to interest from
the posting date (which is the date that our credit card service processor posts the
transaction to your Account). There is no grace period for Cash Advances or Balance
Transfers. We will begin charging interest on Cash Advances, and Balance Transfers on
COMP 4020 (20210120)

2

Consumer Credit Cards EFF 20210201
12121212121212/01

the posting date. Convenience Checks, when available, will be treated like Balance
Transfers for purposes of determining the interest charge.
We calculate interest by applying the monthly periodic rates to the applicable Average
Daily Balances of your Account, including current transactions.
Periodic rates and Annual Percentage Rates (APRs) may increase or decrease every
statement cycle, and are based on an index plus a margin. The margins, initial APRs and
initial periodic rates are set forth in the Account Opening Disclosure for your Account. Should
you choose not to accept the margins and APRs that apply to your Account, you may cancel
your application prior to using the Account.
For example, if the index is 5.00%, and if the margin applicable to your account is 8.40%,
then we add the index and margin together to calculate the applicable APR:
5.00% + 8.40% = 13.40%
The index is the U.S. Prime Rate published in the Wall Street Journal. Please refer to the
Account Opening Disclosure for information on how the APR will vary.
The APRs applicable for a statement cycle will be set forth in the periodic statement for that
statement cycle. We will not charge an APR greater than the maximum that we are permitted
to charge by law (currently 18.0%).
An increase in the APRs and the monthly periodic rates may result in higher interest charges
and higher minimum payments, while a decrease in those rates may result in lower interest
charges and lower minimum payments, assuming the same principal balance and number of
days in the statement cycle. We separate (i) Purchases, (ii) Cash Advances, and (iii)
Balance Transfers into three categories for purposes of determining the interest charges. We
figure the interest charge for Purchases on your Account by applying the periodic rate to the
“Average Daily Balance” of Purchases (including current Purchases). To get the “Average
Daily Balance” of Purchases, we take the beginning Purchase Balance of your Account each
day, add any new Purchases, and subtract any unpaid interest or other finance charges and
any payments or credits applied to your Purchase Balance. This gives us the Daily Balance
for Purchases. Then, we add up all the Purchase Daily Balances for the statement cycle
and divide the total by the number of days in the statement cycle. This gives us the “Average
Daily Balance” for Purchases. We do the same for the other two categories, Cash Advances
and Balance Transfers. Convenience Checks are treated as Balance Transfers for purposes
of determining the interest charge.
b.

Introductory, Promotional and Special APRs.

From time to time, we may offer an Introductory, Promotional or Special APRs. These
Introductory, Promotional or Special APRs will be subject to the terms and conditions as
outlined in the disclosures in effect during the Introductory, Promotional or Special period.
Any Introductory, Promotional or Special APR that we may offer will be separately identified
on your Periodic Statement as well as the Balance for which the APR applies. The separate
Balance and the related interest charge will be calculated as described above. Upon
expiration of the Introductory, Promotional or Special APR, the APR will be adjusted to the
standard APR for the applicable category and will apply to the existing Balance upon
termination of the Introductory, Promotional or Special APR.
COMP 4020 (20210120)

3

Consumer Credit Cards EFF 20210201
12121212121212/01

Balance Transfers and Convenience Checks payable to any HSFCU account (e.g., loans
and credit cards issued by HSFCU), any Account owner, Account joint owner, or Account
Card holder, or to obtain any Cash Advance do not qualify for any Introductory,
Promotional or Special APRs.
6.

OTHER CHARGES:
Please see the Account Opening Disclosure and HSFCU Fee Schedule for other charges
that will be added to your Account, as applicable (such as transaction fees, penalty fees,
Card replacement fees, return payments fees, research fees, etc.).

7.

PERIODIC STATEMENTS:
You will receive a Periodic Statement for each billing period in which your Account has any
outstanding Total New Balance, Finance Charge or other activity. Your Periodic Statement
will show the Minimum Payment amount and the Due Date for the payment. Your Periodic
Statement also will identify the merchant, financial institution or ATM where you made a
transaction. Your Periodic Statement will be your record of receipt from us for payments
made to your Account. You should retain your copy of the transaction receipt provided at the
time of a transaction to verify your Periodic Statement.

8.

PAYMENTS:
For each billing period, you must pay at least the Minimum Payment on or before the
Payment Due Date (which is at least twenty-five (25) days after your Periodic Statement
closing date). Your Minimum Payment is the total of your Current Payment Due, plus any
past due payments and any amount over your credit limit. You agree to pay the Minimum
Payment on or before the Due Date shown on your Periodic Statement. Your Current
Payment Due will be determined by the following schedule:
New Balance
Under $15
$15 to $500
Over $500

Current Payment Due
Entire Amount
$15
3% of the New Balance

You may pay more frequently and more than the Minimum Payment Due, but only
payments made after the Periodic Statement Date will be credited to the Minimum
Payment Due for that Periodic Statement. You also must pay the amount by which the
New Balance exceeds your credit limit.
Subject to applicable law, we may apply Minimum Payments in the manner that we choose.
For example, we may apply Minimum Payments due to transactions with lower APRs
before transactions with higher APRs. Any payment amount above the Minimum Payment
due will be applied to transactions with higher APRs before transactions with lower APRs,
based on the day payment is credited, including transactions that occur after the close of
the statement cycle. Among multiple transactions with the same APR, we may apply your
payments to older transactions before more recent transactions.
We may accept late payments, partial payments, drafts, ShareChecks, checks and money
orders marked “Payment in Full,” or words of similar effect, without losing any of our rights to
collect the full Account Balance. If you in good faith tender partial payment to us as full
COMP 4020 (20210120)

4

Consumer Credit Cards EFF 20210201
12121212121212/01

satisfaction of a claim that is unliquidated or subject to a bona fide dispute, you must send
the partial payment to us at the address for inquires listed on your Periodic Statement, with a
description of the error. See the sections in this Agreement entitled “Disputes with Merchant,”
“Your Rights to Dispute Billing Errors,” and “Your Billing Rights” for more information.
9.

DEFAULT:
You will be in default if you fail to make any Minimum Payment or other required payment by
its Due Date. You also will be in default if we determine that your ability to repay us may be
reduced for any reason, including but not limited to a change in your employment, a
decrease in your income, an increase in your obligations, bankruptcy or insolvency
proceedings involving you, or your death. Additionally, you will be in default if you fail to
abide by this Agreement or if you make any false or misleading statements in any credit
application, credit update or other communication to us. You agree to inform us if you
become aware of any event or condition that may constitute a default as described in this
Section 9. We have the right to demand immediate payment of your full Account Balance if
you default, subject to our giving you any notice required by law. To the extent permitted by
law, you also will be required to pay our collection expenses, including court costs and
reasonable attorney fees.

10.

SECURITY INTEREST:
For Platinum Share-Secured Rewards Credit Card Accounts, 110% of the credit line is
placed on permanent hold in the Account holder’s regular share account as additional
security. This amount shall be in addition to the par share balance.
Collateral securing other loans that you have with us may secure your Account, except that
a dwelling will never be considered as security for your Credit Card Account,
notwithstanding anything to the contrary in any other agreement with us.
If we obtain a judgment against you for anything you owe us on your Account, and neither
law nor the terms of the judgment prohibits us from doing so, we may set off the judgment
debt against any obligation we owe you (such as the balance in your HSFCU accounts
without special tax treatment).

11.

CANCELLATION:
Except where written notice is required by law, we shall not be under any obligation to make
any extension of credit, we may cancel your Account, we may refuse to allow further
transactions, and we may revoke your Card, Access Device, PIN or Access Code at any
time.
You may cancel your Account by writing to us at Hawaii State Federal Credit Union, Card
Operations, P.O. Box 3072, Honolulu, HI 96802-3072.
Each Card and Access Device shall remain the property of HSFCU and may be
repossessed by us at any time, with or without notice. Upon cancellation of your Account,
you will use your best effort to retrieve all Cards and Access Devices. You will immediately
return all Access Devices and Cards, which you will have cut in half. You also will cancel
any recurring charges.
After cancellation of your Account, you will continue to be bound to pay the Balance of the
Account under the terms of this Agreement subject to section 9, and until paid, you will be

COMP 4020 (20210120)

5

Consumer Credit Cards EFF 20210201
12121212121212/01

liable for all Finance Charges and other fees and charges imposed on the Account. You
also are liable for the payment of any credit that is obtained after the Account is cancelled
and for all other amounts owed under the Account. Cancellation will not affect any of our
rights or any security interests securing the advances under this Agreement, until all
obligations to us have been satisfied.
12.

CARD INFORMATION UPDATES AND AUTHORIZATIONS:
If you have authorized a merchant to bill charges to your Card on a recurring basis, it is your
responsibility to notify the merchant in the event your Card is replaced, your Card information
(such as Card number and expiration date) changes, or the account associated with your
Card is closed. However, if your Card is replaced or Card information changes, you authorize
us, without obligation on our part, to provide the updated Card information to the merchant in
order to permit the merchant to bill recurring charges to the Card. You authorize us to apply
such recurring charges to the Card until you notify the merchant that you are revoking the
merchant’s authorization for the charges to your Card and the revocation is processed.
Your Card is automatically enrolled in an information updating service. Through this service,
your updated Card information (such as Card number and expiration date) may be shared
with participating merchants to facilitate continued recurring charges. Updates are not
guaranteed. You are responsible for making direct payment until recurring charges resume
and for assuring that the merchant has your updated Card information.

13.

DISPUTES WITH MERCHANT:
We are not responsible for the refusal of any merchant or financial institution to honor your
Card or Access Device. If you have a dispute with a merchant or financial institution, you
must make a good faith attempt to resolve the dispute with the merchant or financial
institution. If you cannot do so, you must send written notice of the dispute to Customer
Service, P. O. Box 31112, Tampa, FL 33631-3112 and to the merchant or financial
institution. We will then investigate the dispute and take such action as required under the
Federal Truth in Lending Act.
If we credit your Account for any disputed amount, you agree that (a) we will be subrogated
to, and you shall assign to us, all rights that you have against the merchant or financial
institution, (b) you will do whatever is necessary to enable us to exercise our rights and will
cooperate with us, and (c) you will not prejudice our rights. You further agree that we have
the right to reverse any credits that we apply, and that you will indemnify and hold us
harmless with respect to any dispute, to the full extent permitted by law.

14.

CHANGE IN TERMS:
We may change the terms of this Agreement from time to time. The new terms will apply to
your existing Account Balances and all Fees and Charges accrued at the time of the
change as well as to any future transactions. We will mail to you written notice of the
change or the new Agreement at least forty-five (45) days before the effective date of the
change, except as otherwise permitted or required by law.

COMP 4020 (20210120)

6

Consumer Credit Cards EFF 20210201
12121212121212/01

15.

YOUR RIGHTS TO DISPUTE BILLING ERRORS:
Read the notice entitled Your Billing Rights, that immediately follows Section 33 of this
Agreement; it contains important information regarding your rights to dispute billing errors.
By this reference, that notice is made a part of this Agreement.

16.

LOST OR STOLEN CARD AND UNAUTHORIZED USE:
If you notice the loss or theft of your Card or a possible unauthorized use of your Card, you
should call us immediately at the following toll-free numbers based on your credit card
account:
Signature Cash Rewards Credit Card
Platinum Rewards Credit Card
Platinum Share-Secured Rewards Credit Card

1-855-437-2794
1-866-820-6821
1-866-820-6821

Or you may write to us at: Credit Card Security Department, P. O. Box 31281, Tampa, FL
33631-3281.
You will not be liable for any unauthorized use that occurs after you notify us. You may,
however, be liable for unauthorized use that occurs before your notice to us. In any case,
your liability will not exceed $50. Subject to investigation, verification of your claim, and
account standing and history, you will have no liability for unauthorized Purchases made
with your Card through Visa Network, unless you acted with gross negligence or fraud, or
delayed in reporting unauthorized use.
You are responsible for the safekeeping of your Card, PIN, Access Device and Access
Code. If we suffer a loss we may not reissue a Replacement Card or Access Device and
may close your Account.
17.

ADDRESS CHANGES AND NOTICES:
Whenever we are required to give you notice about your Account, we will mail it to you at
your present address, or at any new address that you have given to us, or to your last
known address. Notice sent to any one of you will be considered notice to all of you. You
agree to notify us as soon as possible of any change of address by writing us at Hawaii
State Federal Credit Union, Card Operations,
P.O. Box 3072, Honolulu, HI 96802-3072. In your written request, include the date of your
request, your old and new address, your Member Number and Credit Card Account
Number, and your signature. We may close your Account if you move outside the State of
Hawaii.
If there is any notice that you need to give us, call us during our regular business hours at
808-587-2700 or toll free at 1-888-586-1056 for Neighbor Islands or Continental U.S.A.,
write us at Hawaii State Federal Credit Union, Card Operations, P.O. Box 3072, Honolulu,
HI 96802-3072, or go to any HSFCU branch. We may require that certain notices be
provided to us in writing.
Unless this Agreement or law provides otherwise, notice of forty-five (45) days is reasonable
whenever required under this Agreement.

COMP 4020 (20210120)

7

Consumer Credit Cards EFF 20210201
12121212121212/01

18.

RESIDENTS OF IOWA
If you or any Card holder is a resident of the State of Iowa, you agree to notify HSFCU
immediately and to cease all use of the Account. It is against HSFCU rules for Iowa
residents to use a HSFCU Credit Card Account because of the Iowa Lender Credit Card
Act.

19.

RESIDENTS OF NEW YORK
New York residents may contact the New York State Banking Department by telephone or
visit its website for free information on comparative credit card rates, fees and grace
periods. NY State Banking Department: 1-800-342-3739 or http://www.dfs.ny.gov.

20.

APPLICABLE LAW:
The Account was considered, approved and issued in the State of Hawaii and all extensions
of credit are being made from the State of Hawaii. You agree the laws of the State of Hawaii
(without regard to any conflicts of law provisions) shall apply to this Agreement, your
Account, your use of your Card, Access Device, PIN and Access Code, wherever that takes
place, and any proceeding to enforce this Agreement. Jurisdiction and venue shall be vested
in the courts of the State of Hawaii and federal courts in the District of Hawaii. You agree
that any action to enforce any remedies under this Agreement and for any other purpose
may be brought in or transferred to the First Circuit Court of the State of Hawaii or the
U. S. District Court for the District of Hawaii.

21.

USE FOR ILLEGAL PURPOSE PROHIBITED; INDEMNIFICATION AND WAIVER.
You may not use your Account, Card, Access Device, PIN or Access Code for any illegal
purpose, such as unlawful gambling. Display of a payment card logo by an online merchant
or acceptance of a credit card by an online merchant does not necessarily mean that the
transaction is legal in the jurisdiction in which you are located. You will be liable for any
losses resulting from any illegal transaction. You agree that we may deem any illegal use by
you of any financial product or service to be an event of default and a breach of contract, and
that we may terminate services to you in our discretion. You further agree, should illegal use
occur, to waive any right to sue us in connection with such illegal use and to indemnify and
hold us harmless from any action or liability, including attorney’s fees and costs, directly or
indirectly arising out of such illegal use.

22.

INTERNET (ONLINE) TRANSACTIONS:
We subscribe to Verified by Visa (VbV). VbV is an enhancement that improves the
security of Purchases made via the Internet by enabling us to verify your Account
ownership during online purchases by using a password. VbV only relates to Internet
Purchases from merchants that also participate in VbV.
If you make Purchases through the Internet, you should register your Card in the Verified by
Visa section at www.visa.com, where you will be asked to enter account information and
personal data for identity confirmation. You will be able to shop at participating VbV Internet
merchants with no changes to the shopping or checkout process. Should you shop at a VbV
participating Internet merchant and have not yet registered your Card, you will be required to
register with VbV before completing the transaction.

COMP 4020 (20210120)

8

Consumer Credit Cards EFF 20210201
12121212121212/01

23.

FOREIGN TRANSACTIONS:
Purchases and Cash Advances you make in foreign countries and in foreign currencies will
be billed in U.S. dollars. The exchange rate between transaction currency and the billing
currency used for processing international transactions is a rate selected by Visa from the
range of rates available in wholesale currency markets for the applicable central processing
date, which may vary from the rate Visa U.S.A. itself receives; or the government-mandated
rate in effect for the applicable central processing date. The conversion rate in effect on the
processing date may differ from the rate in effect on the transaction date. Foreign transaction
fees may apply as set forth in the Account Opening Disclosure or HSFCU Fee Schedule.

24.

UNAUTHORIZED TRANSACTIONS:
You agree to cooperate fully with the investigation of any unauthorized transaction regarding
your Account, to file complete and truthful reports with criminal law enforcement agencies,
and to give complete and truthful testimony. At our request, you agree that (a) we will be
subrogated to, and you shall assign to us, all rights that you have against any unauthorized
user, (b) you will do whatever is necessary to enable us to exercise our rights and will
cooperate with us, and (c) you will not prejudice our rights. You further agree that we have
the right to reverse any credits that we apply, and that you will indemnify and hold us
harmless with respect to any dispute, to the full extent permitted by law.

25.

NONTRANSFERABILITY:
You may not transfer or assign your Account, Card or Access Device without prior
written consent, which we may withhold in our sole discretion.

26.

SEVERABILITY:
If any provision in our Agreement and Disclosures is not enforceable, such provision shall
be deemed amended and enforced to the maximum extent permissible by law. All other
provisions shall remain in full force and effect.

27.

WAIVERS:
You agree and understand that our failure to delay to exercise any right, remedy, power, or
privilege available to us pursuant to this Agreement shall not affect or disallow our future
exercise of that right, remedy, power or privilege.

28.

ELECTRONIC RECORDS; EVIDENCE:
You agree that a copy, microfilm, microfiche, or other electronic medium will have the same
validity as the original.

29.

BUSINESS DAYS:
Our Business Days are Mondays through Fridays, except Holidays including State of
Hawaii Holidays. Our business hours generally are from 7:30 a.m. to 5:00 p.m.

30.

ACCUMULATION OF CUREWARDS POINTS FOR PLATINUM REWARDS AND
PLATINUM SHARE-SECURED REWARDS ACCOUNTS:
Every dollar in qualifying Purchases, less returns, that you charge to your Account earns
one (1) point. Points are not earned for Finance Charges, Fees, Cash Advances, Balance
Transfers, Convenience Checks, foreign transaction currency conversion charges or
insurance charges posted to your Account.

COMP 4020 (20210120)

9

Consumer Credit Cards EFF 20210201
12121212121212/01

The accumulation of points can be used to order awards as described in the CURewards
Program brochure or the website (www.CURewards.com) which can be accessed via the
HSFCU’s home banking site. The awards are subject to availability.
To redeem your points you must have the necessary number of points posted to your
Account as of your previous Periodic Statement, your Account must be current and your
outstanding balance should not be greater than your established credit limit.
Points earned in calendar year one will expire as of the last day of calendar year five. (For
example, points earned in 2022 will expire December 31, 2026; points earned in 2023 will
expire December 31, 2027.)
A complete set of Program Rules may be obtained at the CURewards website, via the Credit
Union’s home banking site, or by contacting the Credit Union at 808-587-2700 or toll free at
1-888-586-1056 for Neighbor Islands and Continental U.S.A. We reserve the right to
terminate the Program at any time upon providing any notice required by applicable law. If
terminated, we shall not be responsible or liable for any points you have earned and did not
use prior to the end of the Program. Also, if your Account is closed for any reason, any
unused accrued points will be forfeited.
31.

CASHBACK FOR SIGNATURE CASH REWARDS ACCOUNTS:
Every dollar in qualifying Purchases, less returns, that you charge to your Account earns 1%
cashback. Cashback is not earned for Finance Charges, Fees, Cash Advances, Balance
Transfers, Convenience Checks, or insurance charges posted to your Account. Cashback
will be given as a statement credit on a quarterly basis on the January, April, July, and
October statements. If your Account is closed prior to the close of the quarter (March, June,
September and December), you will forfeit the cashback statement credit for that quarter.

32.

ENTIRE AGREEMENT:
The information contained in this Agreement is accurate as of July 1, 2018 and is subject to
change after that date. Please write to Hawaii State Federal Credit Union, Card Operations,
P.O. Box 3072, Honolulu, HI 96802-3072 for any changes to this information. This
Agreement represents the entire Signature Cash Rewards Credit Card, Platinum Rewards
Credit Card and Platinum Share- Secured Rewards Credit Card Agreement. It supersedes
any previous Agreements and any terms that may be included with or may appear on any
other document (e.g., the Card jacket, which arrives with your Card(s) and transaction
receipts provided at the time of a transaction).

33.

GENERAL QUESTIONS ABOUT YOUR CREDIT CARD ACCOUNT:
Direct all questions about your Account to Customer Service at the applicable number
below:
Signature Cash Rewards Credit Card
Platinum Rewards Credit Card
Platinum Share-Secured Rewards Credit Card

COMP 4020 (20210120)

10

1-855-437-2794
1-866-820-6821
1-866-820-6821

Consumer Credit Cards EFF 20210201
12121212121212/01

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the
Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at: Customer
Service
P. O. Box 31112 Tampa, FL
33631-3112
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
a. Within 30 days of receiving your letter, we must tell you that we received your letter.
We also will tell you if we have already corrected the error.
b. Within 90 days of receiving your letter, we must either correct the error or explain why
we believe the bill was correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as delinquent
on that amount.
•
The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
•
While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.

COMP 4020 (20210120)

11

Consumer Credit Cards EFF 20210201
12121212121212/01

•

If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
The purchase must have been made in your home State or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2.
You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
at:
Customer Service
P. O. Box 31112 Tampa, FL
33631-3112
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.

COMP 4020 (20210120)

12

Consumer Credit Cards EFF 20210201
12121212121212/01

Pricing Addendum
Hawaii State Federal Credit Union
Signature Cash Rewards Credit Card
Platinum Rewards Credit Card
Platinum Share-Secured Rewards Credit Card
Effective February 1, 2021
Interest Rates and Interest Charges
Annual Percentage Rate
for the Signature Cash Rewards Credit Card. Your
(APR)
for
Purchases,
APR
will
vary
with
the
market,
and
is based on the U.S. Prime Rate plus a margin of
Balance Transfers and Cash
7.40%
to
9.40%,
based
on
your
creditworthiness.
*
Advances
for the Platinum Rewards Credit Card. Your APR will
vary with the market, and is based on the U.S. Prime Rate plus a margin of 7.40% to
13.90%, based on your creditworthiness. After that, your APR will vary *

10.65% to 12.65%
10.65% to 17.15%
17.15%

for the Platinum Share-Secured Rewards Credit Card. Your APR will
vary with the market, and is based on the U.S. Prime Rate plus a margin of 13.90%.*
Penalty APR and When it
Applies
How to Avoid Paying Interest
on Purchases

None.

Minimum Interest Charge

None.

For Credit-Card Tips from the
Consumer
Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the
website
of
the
Consumer
Financial
Protection
Bureau
at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

Your due date is at least 25 days after the close of each statement cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month and do not use your Account for cash advances and balance transfers.

None.
None.
None.
None.
Up to $28.
None.
Up to $28.

How We Will Calculate Your Balance: We will use a method called “Average Daily Balance (including new transactions).”
*Variable APR: The APRs are based on an index plus a margin. The margins, APRs and periodic rates will be set forth in your
Account Opening Disclosure. The index is the U.S. Prime Rate published in the Wall Street Journal. We will use the most recent
index available as of the first day of the calendar month in which the statement cycle begins. For example, the APR that will
be applied during your statement cycle that begins in July will be calculated using the index available on July 1. We will not
charge an APR greater than the maximum that we are permitted to charge by law (currently 18.0%).
Payments: Subject to applicable law, we may apply your minimum payments in the manner that we choose. E.g., we may
apply your minimum payments to transactions with lower APRs before transactions with higher APRs. If your payment exceeds
the required minimum periodic payment, we will allocate the excess to the balance with the highest APR first, based on the day
payment is credited, including transactions that occur after the close of the statement cycle.
Fees: Late Payment Fees, Returned Payment Fees and Returned Convenience Check Fees will not exceed the amount of
the payments; if there is no previous incident of late payment, returned payment, or returned convenience check, as applicable,
for the Account in the current statement cycle or in any of the six preceding statement cycles, the fee will not exceed the CFPB
limit (currently $27). The Stop Payment Fee on Convenience Checks (if offered), and the returned Convenience Check Fee
are each $28. The Research Fee is $25 per hour or fraction thereof. The Periodic Statement Copy Fee is $5 per copy. Research

COMP 4020 (20210120)

13

Consumer Credit Cards EFF 20210201
12121212121212/01

and Periodic Statement Copy Fees apply to requests made by you or third parties (including, for example, subpoenas and
search warrants), and will be added to the Account unless payment is received in advance. The Card Replacement Fee is $10
for each Card replacement ordered. Please see our current Fee Schedule for other fees.
Security: Collateral securing other loans that you have with us may secure your Credit Card Account, except that a dwelling
will never be considered as security for your Credit Card Account. In addition, for Platinum Share-Secured Rewards Card,
110% of the credit line is placed on permanent hold in the Regular Share Account as additional security, in addition to the par
share balance. See the Account Agreement for more information regarding security for your Account.
Iowa: If any Owner or Cardholder is a resident of the State of Iowa, you agree to notify us immediately and to cease all use of
the Account. It is against our rules for Iowa residents to use our Credit Card Account because of the Iowa Lender Credit Card
Act.
New York: New York residents may contact the New York State Banking Department by telephone or visit its website for free
information on comparative credit card rates, fees and grace periods. NY State Banking Department: 1-800-342-3739 or
http://www.dfs.ny.gov.
Current Information: The information about the costs of the card is accurate as of December 1, 2020. This information may
have changed. To find out what may have changed, please write to Hawaii State Federal Credit Union, Card Operations, P.O.
Box 3072, Honolulu, HI 96802-3072, or call 587-2700 (Oahu) or 1-888-586-1056 toll-free from Neighbor Islands & Continental
U.S., or go to any Hawaii State Federal Credit Union branch.

COMP 4020 (20210120)

14

Consumer Credit Cards EFF 20210201
12121212121212/01

